HHS/OIG Audit: "Audit of Observation Service Billings by Prospective Payment System (PPS) Hospitals," (A-06-01-00028)
Department of Health and Human Services
Audit of Observation Service Billings by Prospective Payment System (PPS)
Hospitals
(A-06-01-00028)
February 12, 2002
Complete
Text of Report is available in PDF format (265 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit
work related to outpatient observation services billed by St. Francis Hospital
(Hospital) in Tulsa, Oklahoma.  The objective of our audit was to determine
whether outpatient observation services billed by the Hospital met the Medicare
reimbursement requirements.  Our review covered service dates between July
1, 1996 and June 30, 2000 (fiscal years 1997-2000).  The Hospital
billed Medicare for observation services that did not meet Medicare criteria,
resulting in an estimated overpayment of $298,549.  We audited a statistical
sample of 100 claims that contained observation services and determined
that 80 percent of the observation services did not meet Medicare requirements.
These services were unallowable primarily because physicians orders
were not documented in the medical records, or the medical records contained
a standing order for observation.  We are recommending that the fiscal
intermediary recover the overpayment amount for inappropriate observation billings
of $298,549, and instruct the Hospital to develop procedures to correct control
problems.  The fiscal intermediary concurred with our recommendations.